TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Collection Function Develops
                    Quality Fraud Referrals but Can Improve
                     the Identification and Development of
                             Additional Fraud Cases


                                           July 27, 2012

                              Reference Number: 2012-30-083




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information       3(d) = Other Identifying Information of an Individual or Individuals



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                 HIGHLIGHTS


THE COLLECTION FUNCTION                                 to improve the identification and development of
DEVELOPS QUALITY FRAUD                                  Collection function fraud referrals.
REFERRALS BUT CAN IMPROVE THE                           ROs may be deterred from looking for fraud
IDENTIFICATION AND DEVELOPMENT                          because fraud cases are more complex, require
OF ADDITIONAL FRAUD CASES                               extensive additional work, and often do not
                                                        result in accepted referrals. In addition,
                                                        technical assistance was not always available to
Highlights                                              ROs, and management efforts to support fraud
                                                        development varied.
Final Report issued on July 27, 2012
                                                        Civil fraud penalties should be considered on
                                                        criminal cases declined by CI. TIGTA reviewed
Highlights of Reference Number: 2012-30-083
                                                        all of the 53 Fiscal Year 2010 Collection function
to the Internal Revenue Service Commissioner
                                                        fraud referrals declined by CI. There was no
for the Small Business/Self-Employed Division.
                                                        documentation showing that civil fraud penalties
IMPACT ON TAXPAYERS                                     were considered in 44 (83 percent) of the cases.

Tax fraud is a deliberate and purposeful violation      The RO, group manager, and Fraud Technical
of Internal Revenue laws by those who do not            Advisor should review each case for common
file and properly report their income and               rejection reasons prior to initiating a lengthy
expenses. When criminal fraud or civil fraud            fraud development case. However,
penalties are not adequately pursued, the IRS’s         22 (42 percent) of 53 declined referrals were
efforts to reduce the Tax Gap and the                   rejected for common rejection reasons. There
noncompliance that contributes to it can be             was no evidence that these common issues
undermined. Taxpayers who do not voluntarily            were identified. TIGTA also determined that the
pay their share of taxes create unfair burden on        overage clock was not always properly stopped
taxpayers who timely and fully pay their taxes and      or restarted in Collection function fraud cases.
can diminish the public’s respect for the tax system.
                                                        WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                                 TIGTA recommended that the Director,
The Fraud Office reported that declined fraud           Collection Policy, issue guidance to emphasize
referrals from Fiscal Year 2007 to mid-Fiscal           potential adjustments of RO inventory levels
Year 2009 exhibited common weaknesses. In               when cases are in fraud development; revise
addition, a Fiscal Year 2009 Fraud Customer             guidance to require the post-declination meeting
Survey of the Collection function revealed              include a discussion about the potential for a
many respondents do not look for fraud in               civil fraud referral; and emphasize that possible
every case, and many revenue officers (RO)              barriers to a criminal fraud referral need to be
responded that they would not contact a Fraud           discussed and documented during the case
Technical Advisor for assistance in the future          development.
This audit was initiated to assess the                  In their response to the report, IRS officials
effectiveness of the Collection Fraud                   agreed with the recommendations and plan to
Referral Program, and whether the Collection            emphasize inventory control strategies for the
Field function is adequately considering,               development of potential fraud cases and
identifying, and developing fraud cases for             update procedures to include information to be
referral to Criminal Investigation (CI).                discussed during post-declination and case
WHAT TIGTA FOUND                                        development meetings.

The Collection Fraud Referral Program has
been successful in developing quality criminal
fraud referrals. However, there are opportunities
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                July 27, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Collection Function Develops Quality Fraud
                                 Referrals but Can Improve the Identification and Development of
                                 Additional Fraud Cases (Audit # 201130020)

 This report presents the results of our review to determine the effectiveness of the Collection
 Fraud Referral Program, and whether the Collection Field function1 is adequately considering,
 identifying, and developing fraud cases for referral to Criminal Investigation. The review was
 part of our Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge
 of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations.
 Please contact me at (202) 622-6510 if you have questions or Frank Dunleavy, Acting Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (213) 894-4470
 (Ext. 128).




 1
     See Appendix V for a glossary of terms.
                            The Collection Function Develops Quality Fraud Referrals
                             but Can Improve the Identification and Development of
                                             Additional Fraud Cases




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Collection Fraud Referral Program Has Been
          Successful in Developing Quality Criminal Fraud
          Referrals ........................................................................................................ Page 3
          Collection Field Function Employees May Be Deterred
          From Identifying and Pursuing Potential Collection
          Function Fraud Referral Cases...................................................................... Page 4
                     Recommendation 1:........................................................ Page 7

          Civil Fraud Penalties Were Not Always Considered.................................... Page 7
                     Recommendation 2:........................................................ Page 9

          Common Fraud Referral Weaknesses Were Not
          Identified Early in the Development Process................................................ Page 9
                     Recommendation 3:........................................................ Page 10

          The Overage Clock Was Not Always Properly Stopped
          or Restarted ................................................................................................... Page 11

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measure ................................................................ Page 17
          Appendix V – Glossary of Terms ................................................................. Page 18
          Appendix VI – Management’s Response to the Draft Report ...................... Page 21
        The Collection Function Develops Quality Fraud Referrals
         but Can Improve the Identification and Development of
                         Additional Fraud Cases




                     Abbreviations

CI             Criminal Investigation
FTA            Fraud Technical Advisor
FY             Fiscal Year
IRM            Internal Revenue Manual
IRS            Internal Revenue Service
RO             Revenue Officer
SB/SE          Small Business/Self-Employed
                         The Collection Function Develops Quality Fraud Referrals
                          but Can Improve the Identification and Development of
                                          Additional Fraud Cases




                                              Background

Tax fraud is a deliberate and purposeful violation of
                                                              The very nature of Collection
Internal Revenue laws by those who do not file and             function work lends itself to
properly report their income and expenses. Tax fraud          numerous areas of fraudulent
requires both an underpayment and fraudulent intent,          noncompliance by taxpayers.
and is one of the most egregious forms of
noncompliance.
The primary objective of the Internal Revenue Service’s (IRS) Fraud Program is to foster
voluntary compliance of tax laws through the recommendation of criminal prosecutions and civil
penalties against taxpayers who evade the assessment or payment of owed taxes. The very
nature of Collection function work lends itself to numerous areas of fraudulent noncompliance
by taxpayers. Among the IRS operating divisions,1 the Small Business/Self-Employed (SB/SE)
Division’s Collection Field function is an important cross-functional partner in the detection and
referral of fraud issues.
A Collection Field function revenue officer (RO) should initiate a fraud-related discussion with
the group manager at the earliest possible opportunity whenever any indicators of fraud are
discovered. If the group manager concurs, the Fraud Technical Advisor (FTA) should be
consulted for assistance. The role of the FTA, who works for the Fraud/Bank Secrecy Act
function within the SB/SE Division, is critical to the successful and timely development of
quality potential fraud referrals and civil fraud penalties. In addition to assisting compliance
employees with potential fraud development cases, the FTA serves as the cross-functional liaison
and local expert in criminal and civil fraud. When a fraud referral is fully developed, it is
submitted to Criminal Investigation (CI) for consideration of prosecution potential. If CI
determines the case has prosecution potential, it accepts the referral and completes an
investigation. If CI does not feel the case has prosecution potential, it declines the referral.
Criminal fraud results in punitive actions with penalties consisting of fines and/or imprisonment.
A tax fraud offense may result in both civil and criminal penalties. The major difference
between civil and criminal fraud is the degree of proof required. In criminal cases, the Federal
Government must present sufficient evidence to a jury in order to prove guilt beyond a
reasonable doubt. However, civil fraud penalties, which are assessed administratively, only
require clear and convincing evidence of fraud with intent to evade tax. Due to the lower
standard of proof in civil cases, civil fraud penalties may be imposed on a taxpayer who was not
convicted of criminal tax evasion.


1
    See Appendix V for a glossary of terms.
                                                                                           Page 1
                   The Collection Function Develops Quality Fraud Referrals
                    but Can Improve the Identification and Development of
                                    Additional Fraud Cases



IRS management conducts analyses of cases declined by CI. National trends for declined
referrals from Fiscal Year (FY) 2007 through mid-FY 2009 for all operating divisions identified
three common reasons why a criminal fraud referral was declined by CI. Specifically, CI
declined cases that: 1) did not meet the minimum tax criteria, 2) lacked sufficient evidence, or
3) did not establish that the taxpayer willfully intended to defraud the Federal Government.
This review was performed at the IRS Headquarters in Washington, D.C.; the SB/SE Division
Headquarters in New Carrollton, Maryland; and Collection function field offices in Laguna
Niguel and Los Angeles, California, and Chicago, Illinois, during the period July 2011 through
February 2012. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                          Page 2
                         The Collection Function Develops Quality Fraud Referrals
                          but Can Improve the Identification and Development of
                                          Additional Fraud Cases




                                       Results of Review

The Collection Fraud Referral Program has been successful in developing quality criminal fraud
referrals. However, opportunities exist to improve both the identification and development of
Collection function fraud referrals. Specifically:
       Collection Field function employees may be deterred from identifying and pursuing
        potential Collection function fraud referral cases.
       Civil fraud penalties were not always considered.
       Common fraud referral weaknesses were not identified early in the development process.
       The overage clock was not always properly stopped or restarted.

The Collection Fraud Referral Program Has Been Successful in
Developing Quality Criminal Fraud Referrals
The IRS’s Fraud and Collection Policy offices have made recent improvements that have
contributed to the Collection function having the highest percentage of fraud referrals accepted
by CI among all IRS functions that submit referrals. For fraud referrals submitted to CI in
FY 2010, Collection function’s acceptance rate was 77 percent, compared to the Service-wide
rate of 70 percent. Additionally, the acceptance rate of Collection function fraud referrals has
increased each year from FY 2008 through FY 2010, indicating fraud development guidance and
training is becoming increasingly effective for the Collection function. Figure 1 shows
Collection function fraud referrals to CI compared with the Service-wide referrals.
 Figure 1: Comparison of Collection Function and Service-Wide Fraud Referrals
                  Declined Referrals       Accepted Referrals        Total Referrals         Acceptance Rate
                 Service-                Service-                 Service-                 Service-
                  Wide      Collection    Wide       Collection    Wide      Collection     Wide      Collection
 FY 2008           206          63         419          147         625          210        67%         70%

 FY 2009           166          61         334          159         500          220        67%         72%

 FY 2010           156          53         369          176         525          229        70%         77%
Source: IRS CI Business Performance Review, dated September 2010 for the Service-wide data. The Collection
function specific statistics were provided by CI to the Treasury Inspector General for Tax Administration in
July 2011.




                                                                                                        Page 3
                      The Collection Function Develops Quality Fraud Referrals
                       but Can Improve the Identification and Development of
                                       Additional Fraud Cases



The Fraud Handbook2 has been revised several times over the past few years. One of the
revisions added a requirement to include a written Plan of Action for all fraud development cases
(effective October 30, 2009). A written Plan of Action helps guide the RO through fraud
development in a timely and orderly manner, and helps facilitate the involvement of the group
manager and the FTA. This change was made based on best practices identified from Collection
function operational reviews conducted by the Fraud and Collection Policy offices during
FYs 2007, 2008, and 2009.
In addition, Form 11661-A, Fraud Development Recommendation - Collection, has been
improved, including the addition of checklist items to the Plan of Action section. Also, because
existing guidance allows the Plan of Action to be prepared on any of three formats,3 IRS
management told us that revisions are in process to improve consistency. IRS management plans
to update FTA guidance to require that the Plan of Action be electronically attached or inserted
into the Form 11661-A. This change will help ensure that all Plans of Action are consistently
associated with the Form 11661-A, which is controlled by the FTAs.

Collection Field Function Employees May Be Deterred From
Identifying and Pursuing Potential Collection Function Fraud Referral
Cases
While the IRS encourages its employees to be cognizant of potential fraud violations, the
detection and deterrence of fraud is every RO’s responsibility. The Internal Revenue Manual
(IRM) states that ROs are responsible for identifying potential fraud and referring that taxpayer
to CI.4 In addition, when indications of fraud are identified and the group manager concurs,
Collection function employees should contact the FTA for assistance. The role of the FTA is
critical to the successful and timely development of potential fraud referrals.
During FYs 2008 and 2009, the IRS’s Fraud and Collection Policy offices conducted fraud
operational reviews of five of the seven Collection function areas. The IRS’s reviews identified
potential barriers that may be deterring ROs from pursuing fraud cases. For example, the
following excerpts appeared in one or more of the five Collection function area fraud operational
reviews:
       ROs admitted they are more likely to pursue fraud development cases when they have an
        “understanding manager.”




2
  IRM 25.1 (Dec. 27, 2011).
3
  IRM 25.1.2.2(5) (Oct. 30, 2009) states the Collection Fraud Development Plan of Action may be documented:
1) in the form of a memorandum, 2) on page two of Form 11661-A, or 3) on Form 11660, Fraud Development Plan.
4
  IRM 5.1.11.6.2 (Jan. 15, 2010).
                                                                                                    Page 4
                       The Collection Function Develops Quality Fraud Referrals
                        but Can Improve the Identification and Development of
                                        Additional Fraud Cases



       ROs also indicated that fraud is a lower priority; and it has to compete with higher
        priorities like overage and other inventory or management conflicts. It was evident that
        management sets the tone for fraud development.
       It was strongly suggested by the ROs and FTAs that the group managers exercise any
        inventory relief possible to show their “real” encouragement and support for the Fraud
        Program.
       Some group managers are reducing RO inventory levels when active fraud development
        work is present. This practice emphasizes the fact that fraud development is a priority
        and enhances the RO’s ability to coordinate and develop both civil and criminal actions
        while balancing the demands of their remaining inventory.
Additionally, in FY 2009, the Fraud Office conducted an employee survey to solicit opinions
about the Fraud Program in the Collection Field function.5 Results of the survey showed that
only about 51 percent of nonmanagerial respondents review every case for fraud indicators. The
survey also showed that about 27 percent of nonmanagerial respondents, who had previously
developed a potential fraud referral, would not contact an FTA for assistance in the future.
Furthermore, we conducted several interviews6 which showed that potential barriers reported in
the IRS’s operational reviews and the employee survey may still persist. Collection Field
function personnel, at all levels, told us that ROs may be deterred from looking for fraud because
fraud cases are complex. Fraud referrals generally involve significant amounts of work, and
often include multiple related taxpayer accounts associated with a primary case. Some referrals
can take several months to develop, sometimes even exceeding one year. Much of the work
involves numerous in-depth investigative steps, such as issuing multiple summonses and
reviewing complicated bank and corporate records.
Complicating the extensive work needed to develop a fraud case, fraud development may also be
deterred because:
       Technical assistance is not always available.
       Developed cases may not be referred to, or accepted by CI.
       Management efforts to support fraud development varied.




5
  Of the 1,881 Collection function personnel who responded to this FY 2009 survey, 1,504 (80 percent) were from
field operations.
6
  Interviews at the three Collection function field sites included three Territory managers, seven group managers,
16 ROs, three FTAs, and one FTA manager.
                                                                                                            Page 5
                       The Collection Function Develops Quality Fraud Referrals
                        but Can Improve the Identification and Development of
                                        Additional Fraud Cases



Technical assistance is not always available
The FTAs are expected to help inexperienced ROs, who may not possess the skills needed to
plan and develop a fraud referral. However, as of the end of FY 2011, there were only
36 designated FTAs throughout the country. These 36 FTAs were responsible for assisting
5,619 ROs, which is an average of 156 ROs for each FTA. This ratio can affect the availability
of the FTAs and limit the amount of time they have to help all ROs who need assistance. Four of
the five Collection function area fraud operational reviews noted that a lack of regular, ongoing
FTA involvement caused cases to linger in fraud development status and increased case hours.
Territory managers in those operational reviews suggested the number of FTAs are “too thin” to
cover the Collection function. To address this issue, one operational review included a
suggestion that more experienced ROs could assist with the development of fraud cases.

Developed cases may not be referred to, or accepted by CI
CI considers many factors when deciding on the prosecution potential of a criminal fraud
investigation. ROs can become discouraged if their efforts do not result in an accepted criminal
fraud referral. Sometimes, after extensive amounts of work, the FTA recognizes that there is
insufficient evidence and the case does not result in a referral to CI. In addition, even when an
RO’s extensive work does result in an actual fraud referral to CI, it is sometimes declined by CI
for uncontrollable factors.7 During this review, we were informed of instances of months and
months of “wasted time” which often discouraged ROs who have never worked a fraud referral
case from further pursuing a referral, even when signs of fraud existed in one of their cases.

Management efforts to support fraud development varied
Collection function management does not always use available options to accommodate fraud
referral work. Different management styles and perceptions of expectations cause varying
degrees of emphasis on the Fraud Referral Program.
ROs are expected to work multiple cases and the complexity and number of cases assigned
generally depends on their grade level. Because it is important for ROs to timely work these
cases, the IRS has established an overage clock that keeps track of how long a case has been
assigned to a particular RO. When a case becomes overaged, it can negatively affect both the
taxpayer and the group manager’s evaluation of the RO’s performance. Because fraud cases are
more complex and time consuming, the overage clock should be stopped when a case enters into
fraud development.
Even though the overage clock should be stopped on a case in fraud development, the clock on
the rest of the RO’s inventory continues to run. To help address the possibility that the other


7
 Factors beyond the control of the RO can cause CI to decline a fraud referral. For example, CI may believe a case
would be too difficult to present to the average jury.
                                                                                                           Page 6
                    The Collection Function Develops Quality Fraud Referrals
                     but Can Improve the Identification and Development of
                                     Additional Fraud Cases



cases in an RO’s inventory become overaged, group managers have the ability to adjust an RO’s
inventory on a case-by-case basis to reduce workload when an RO has an open fraud referral.
However, only one of seven group managers at the three Collection field sites we visited
indicated that his or her inventory is adjusted for fraud referrals. Notably, this group had five
open fraud development cases at the time of our interviews. Most of the ROs at the other groups
told us that they had not worked a fraud referral case in many years.
When inventory levels are not adjusted, there is a possibility that the rest of an RO’s inventory
will become overaged and the RO will receive increased scrutiny (perceived or actual) by his or
her manager. This condition can discourage the RO from pursing a fraud referral, even when
there are indications of fraud. In addition, legal restrictions do not allow managers to recognize
an RO, in performance evaluations or awards, for identifying or working a fraud referral.
Although efforts have been made by Collection function management to encourage fraud
development, some ROs believe the only reward they get for working a long, complex fraud case
is an overaged inventory.
If all Collection function employees are not willing or motivated to identify and pursue potential
fraud cases, it can undermine the IRS’s efforts to reduce the Tax Gap and the noncompliance that
contributes to it. Additionally, if employees in all groups are not provided similar
accommodations to lessen workload for fraud cases, inequitable treatment of taxpayers may
occur. By not adequately pursuing criminal fraud when warranted, the IRS may not only lose the
confidence of those complying with the tax laws, but also risk more fraudulent activity from
noncompliant taxpayers.

Recommendation
Recommendation 1: The Director, Collection Policy, SB/SE Division, should issue guidance
to emphasize potential adjustments to RO inventory levels when cases are in fraud development
when appropriate, and indicate that experienced ROs can mentor less experienced ROs through
the fraud process in consultation with the FTA.
       Management’s Response: IRS management agreed with this recommendation and
       will issue guidance to the Area directors to emphasize the inventory control strategies
       present in IRM 1.4.50.2.1 for the development of potential fraud cases when appropriate.

Civil Fraud Penalties Were Not Always Considered
Even when a potential fraud referral is declined by CI or the taxpayer is not convicted of
criminal tax evasion, civil fraud penalties may be imposed because there is a lower standard of
proof. Civil fraud penalties, which can be as much as 75 percent of the additional tax due to
fraud, can be assessed for fraudulently omitting income on a filed tax return or failing to file a
tax return.

                                                                                             Page 7
                        The Collection Function Develops Quality Fraud Referrals
                         but Can Improve the Identification and Development of
                                         Additional Fraud Cases



The responsibility for assessing civil penalties lies with the Examination function. Therefore,
when an RO identifies fraud, he or she must discuss with the group manager and the FTA the
possibility of referring the case to the Examination function. In addition, Fraud Standard
Operating Procedures8 require that after CI declines a referral, the FTA should conduct a
post-declination meeting with the RO and the group manager to discuss the declined criminal
referral and alternative means of civil closure. This meeting would be an opportune time to
discuss the possibility of referring the case to the Examination function. However, the
procedures do not specifically require a discussion about the potential for referring the case to
the Examination function during the post-declination meetings.
We reviewed all of the 53 FY 2010 Collection function fraud referrals declined by CI and
determined:
         In 44 (83 percent) of the 53 cases, there was no documentation showing that civil fraud
          penalties were considered.
         In 45 (85 percent) of the 53 cases, there was no evidence that post-declination meetings
          were held.
IRS management stated that the ROs, group managers, and FTAs are not expected to be
knowledgeable about when civil fraud penalties are warranted. All three FTAs that we
interviewed indicated that they do not discuss the possibility of civil fraud penalties. ***3(d)***
*****************************3(d)*********************************************
*****************************3(d)********************************************
***************3(d)****************. In addition, one of the FY 2008 Collection function
area fraud operational reviews identified the need to establish a formal process for involving the
Examination function in Collection function fraud cases.
Because the potential for civil fraud penalties is not always addressed, the cases are not always
referred to Examination for consideration of the penalty. We determined that 10 of the 53
FY 2010 Collection function fraud referral cases declined by CI had potential for development of
civil fraud penalties, but there was no evidence that the cases were referred to the Examination
function or that the potential for civil fraud penalties was discussed. While all of these cases
warranted discussion of the penalty, **********************1**********************
***********************************1**************************************
*****1***********.9




8
    IRS Document 12722, National Fraud Program Standard Operating Procedures, (May 2009).
9
    As of May 31, 2012, the investigation for this case had not been concluded.
                                                                                             Page 8
                        The Collection Function Develops Quality Fraud Referrals
                         but Can Improve the Identification and Development of
                                         Additional Fraud Cases



Recommendation
Recommendation 2: The Director, Collection Policy, SB/SE Division and the Director,
Fraud/Bank Secrecy Act, SB/SE Division, should revise guidance to require post-declination
meetings include a discussion about the potential for referring the case to Examination function
for consideration of civil fraud penalties, if applicable to the case. This discussion should be
documented appropriately.
         Management’s Response: IRS management agreed with this recommendation and
         plans to update the relevant IRM section and Fraud Standard Operating Procedures to
         include information to be discussed during the post-declination meeting.

Common Fraud Referral Weaknesses Were Not Identified Early in the
Development Process
Although CI accepted 77 percent of the fraud referrals submitted by the Collection function in
FY 2010, our review of the declined cases identified an opportunity to potentially improve the
productivity and reduce the resources expended by all organizations involved. Many of the
declined cases included rejection reasons that could have been identified by the Collection
function or the FTA early in fraud development or even before development began. Specifically,
one or more of the following declination reasons were present in 22 (42 percent) of the
53 FY 2010 Collection function fraud referrals rejected by CI:
        CI already had an open case on the taxpayer or promoter of the scheme in five (9 percent)
         of the 53 declined cases.
        Taxpayer’s age or health issues presented problems with jury appeal in six (11 percent) of
         the 53 declined cases.
        Venue issues existed with the taxpayer’s residence or where tax returns were filed in
         four (8 percent) of the 53 declined cases.10
        A pattern of fraud in multiple years was not provided or shown in nine (17 percent) of the
         53 declined cases.
        Form 12153, Request for a Collection Due Process or Equivalent Hearing, was not
         forwarded to Appeals, or the matter was still pending in Tax Court in two (4 percent) of
         the 53 declined cases.



10
  Venue is established based on the taxpayer’s place of residence and/or where the tax return was prepared and
submitted. In these four cases, either venue had not been established for the CI field office to which the case was
submitted or the case was submitted to the incorrect field office.
                                                                                                              Page 9
                         The Collection Function Develops Quality Fraud Referrals
                          but Can Improve the Identification and Development of
                                          Additional Fraud Cases



We recognize that the existence of one or more of these conditions may not necessarily result in
a decision not to pursue a fraud case. However, at a minimum, if a case includes a common
fraud referral rejection condition, the RO, group manager, and FTA should discuss the current
trends within the jurisdiction of the case to decide if it is prudent to continue with fraud
development. We found no evidence that these conditions were identified and discussed prior to
referral to CI.
One criterion for the fraud development Plan of Action is to guide the case to its appropriate
conclusion in a timely manner. Notwithstanding, there does not appear to be any guidance or
controls to help prevent the inefficient use of resources that can be associated with pursuing a
time-consuming fraud development case.
Form 11661-A11 includes a Plan of Action section that has a checklist of a few items to consider
during fraud development. However, the checklist does not include items that would help the
early identification or discussion of criminal case weaknesses.
In addition, one of the Collection function area fraud operational reviews reported that some ROs
are of the opinion that the FTAs are not acting as liaisons to CI, which would allow the ROs to
avoid “wasting time developing cases CI is never going to accept.” It also stated that the FTAs
should know and advise the ROs about what types of cases are preferred by CI.
When a potential fraud case is unnecessarily developed by the Collection function and/or
submitted to CI with potential rejection conditions that could have been identified earlier,
resources are unnecessarily expended in the Collection function, Fraud/Bank Secrecy Act
function, and CI. For the 22 fraud referrals that displayed one or more potential rejection
conditions, the average case was worked and monitored by the RO, group manager, and the FTA
in fraud development for 174 calendar days. Additionally, after they were submitted as criminal
fraud referrals, the 22 referrals were evaluated by CI for an average of 62 calendar days before
being declined.

Recommendation
Recommendation 3: The Director, Collection Policy, SB/SE Division and Director,
Fraud/Bank Secrecy Act, SB/SE Division, should emphasize that possible barriers to a criminal
fraud referral need to be discussed and documented during the case development with the FTA,
RO, and group manager.
           Management’s Response: IRS management agreed with this recommendation and
           will revise IRM 25.1.2 to include discussion between the FTA and RO of possible
           barriers to criminal fraud referral during the case development meeting.



11
     At the time of our review, the current version of Form 11661-A was dated October 2010.
                                                                                              Page 10
                       The Collection Function Develops Quality Fraud Referrals
                        but Can Improve the Identification and Development of
                                        Additional Fraud Cases



The Overage Clock Was Not Always Properly Stopped or Restarted
The overage clock should be stopped for Collection function cases in fraud development in order
to promote work on time-consuming fraud cases and help keep the cases from becoming
overaged. However, we determined that the overage clock was not stopped and/or restarted as
required for 13 of the 19 fraud development cases reviewed.12 Our analysis of those 13
exception cases revealed that the delays stopping the overage clock averaged 168 calendar days
after development began, and the delays restarting the overage clock averaged 118 calendar days
after development ended.
After the FTA approves the Form 11661-A, the group manager, or his or her designee, should
input necessary Collection function and Integrated Data Retrieval System codes to stop the
overage clock and prevent the case from being included in systemic case aging reports.13 When
the case is no longer in fraud development status14 or FTA involvement is withdrawn, the group
manager should be notified and should remove or reverse necessary codes to restart the overage
clock.
Fraud Program management explained that the overage clock is not always stopped because they
believe that stopping the clock is only an internal option. However, the benefit of stopping the
overage clock is to promote work on time-consuming fraud cases and help keep those cases from
becoming overaged, which require heightened scrutiny on the part of management. Therefore,
the ROs may be discouraged from pursuing potential fraud if their managers do not adhere to this
requirement, which was implemented as a motivational tool. We brought this issue to
management’s attention during this review even though we are not making a recommendation.




12
   We reviewed a judgmental sample of 30 cases to determine if the overage clock was stopped and restarted as
required. However, 11 of the 30 cases were immediate referrals that bypassed the fraud development phase. A
judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
13
   IRM 25.1.8.8, Aging of Collection Fraud Cases, (Nov. 4, 2008), details the specific codes and processes used to
stop and restart the overage clock. Also, systemic case aging reports are generated by the ENTITY Case
Management System.
14
   A case is deemed no longer in fraud development status on the date CI’s Declination Memorandum is received by
the RO, or 30 calendar days after the date of the Declination Memorandum if the Integrated Collection System does
not notate receipt of the memorandum or indicate FTA involvement is continuing.
                                                                                                         Page 11
                         The Collection Function Develops Quality Fraud Referrals
                          but Can Improve the Identification and Development of
                                          Additional Fraud Cases



                                                                                         Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the Collection Fraud
Referral Program, and whether the Collection Field function is adequately considering,
identifying, and developing fraud cases for referral to CI.
To accomplish this objective, we:
I.         Evaluated the adequacy of fraud referral guidance provided to the Collection Field
           function.
           A. Reviewed applicable fraud referral guidance within the IRM, the IRS Fraud website
              and periodicals, standard operating procedures, and ROs training materials.
           B. Obtained and analyzed quality review results from the National Quality Review
              System1 and the Embedded Quality Review System to determine if any Collection
              Fraud Referral Program guidance or training areas were recently identified for
              improvement and subsequent actions taken by management.
II.        Identified the types and volumes of Collection function fraud cases referred, and
           evaluated statistics such as acceptance rates and resulting civil fraud penalties assessed.
           A. Analyzed the content of Collection function fraud referral statistics received from CI.
               1. Validated the accuracy of Collection function fraud referral statistics provided by
                  comparing the Collection function statistics with Service-wide statistics.
               2. Evaluated Collection function fraud referral statistics to identify any trends or
                  other noteworthy conclusions that could be drawn.
III.       Determined if the Collection Field function is adequately developing and submitting
           fraud referrals.
           A. Reviewed all 53 FY 2010 Collection function fraud referral cases rejected by CI.
               1. Analyzed the reasons CI declined the referrals.
               2. Determined if any civil fraud penalties were assessed on the Taxpayer
                  Identification Numbers associated with the 53 declined cases reviewed. We
                  generated Treasury Inspector General for Tax Administration Data Center
                  Warehouse extracts of all civil fraud penalty assessments that posted after

1
    See Appendix V for a glossary of terms.
                                                                                                Page 12
                  The Collection Function Develops Quality Fraud Referrals
                   but Can Improve the Identification and Development of
                                   Additional Fraud Cases



             FY 2009 and then matched all the Taxpayer Identification Numbers associated
             with the 53 cases to those extracts.
             Validity and reliability of data from computer-based systems:
             For the Treasury Inspector General for Tax Administration Data Central
             Warehouse data extracts noted in Step III.A.2., we relied on the validations
             performed by the Treasury Inspector General for Tax Administration’s Strategic
             Data Services Division staff on the Returns Transaction Files.
         3. Identified which of the cases potentially should have been referred to the
            Examination function for consideration to assess civil fraud penalties by
            comparing the facts of the cases to criteria that supports assessment of either of
            the two fraud penalties: 1) IRM 20.1.5.12.2 is the criteria to assess the civil fraud
            penalty on filed returns, and 2) IRM 25.1.7.2 is the criteria for sufficient support
            to assess the civil fraud penalty on nonfiled returns.
         4. Reviewed the Integrated Collection System case histories to determine if notes
            reveal: 1) the FTA had a meeting with the RO and group manager after CI
            declined the referral, and 2) civil fraud penalties were discussed or a referral to
            the Examination function was made or considered to address the potential
            penalties.
         5. Estimated the potential revenue that could be generated if declined Collection
            function fraud referrals were properly referred to the Examination function for
            consideration of civil fraud penalties when warranted.
      B. Reviewed 30 of the 53 FY 2010 Collection function fraud referrals rejected by CI to
         assess the adequacy of stopping the overage clock for cases in fraud development
         status.
IV.   Determined the adequacy of emphasis placed on identifying, considering, and developing
      fraud in the training, operational reviews, and performance feedback provided to the
      Collection Field function staff for the offices in our scope.
      A. Evaluated performance expectations of group managers and ROs to determine if there
         were any commitments/expectations related to fraud referrals.
      B. Obtained the most recent training records for the ROs and group managers to
         determine the extent of their fraud training.
      C. Analyzed the feedback given to each RO included in their FYs 2010 and 2011
         mid-year and end-of-year appraisals dealing with identifying, considering, and
         developing fraud.
      D. Reviewed Collection function area operational reviews conducted by the Fraud and
         Collection Policy offices.

                                                                                          Page 13
                   The Collection Function Develops Quality Fraud Referrals
                    but Can Improve the Identification and Development of
                                    Additional Fraud Cases



       E. Interviewed the ROs, group managers, Territory managers, and FTAs at each of the
          offices in our scope to obtain their opinions and input about the Collection Fraud
          Referral Program.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies and procedures to determine
the effectiveness of the Collection Fraud Referral Program, and whether the Collection Field
function is adequately considering, identifying, and developing fraud cases for referral to CI.
We evaluated these controls by reviewing source materials, interviewing Collection function and
Fraud/Bank Secrecy Act function personnel, and reviewing all 53 declined FY 2010 Collection
function fraud referrals.




                                                                                        Page 14
                  The Collection Function Develops Quality Fraud Referrals
                   but Can Improve the Identification and Development of
                                   Additional Fraud Cases



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Glen Rhoades, Audit Manager
Lou Zullo, Lead Auditor
Mike Della Ripa, Senior Auditor
Janis Zuika, Senior Auditor




                                                                                      Page 15
                  The Collection Function Develops Quality Fraud Referrals
                   but Can Improve the Identification and Development of
                                   Additional Fraud Cases



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation SE:CI
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:ESC
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Fraud/Bank Secrecy Act, Small Business/Self-Employed Division SE:S:F/BSA
Director, Collection Policy, Small Business/Self-Employed Division SE:S:ESC:CP
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation SE:CI
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                    Page 16
                    The Collection Function Develops Quality Fraud Referrals
                     but Can Improve the Identification and Development of
                                     Additional Fraud Cases



                                                                                  Appendix IV

                                 Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; ****************************1********************
    *********************************1************* (see page 7).

Methodology Used to Measure the Reported Benefit:
Our calculation is based on our review of all of the 53 FY 2010 Collection function fraud
referrals declined by CI. We determined that 10 of the 53 FY 2010 Collection function fraud
referral cases declined by CI had potential for development of civil fraud penalties, but there was
no evidence that the cases were referred to the Examination function or that the potential for civil
fraud penalties was discussed. ******************1******************************
******************************************1*****************************.
******************************************1********************************
***************************************1*********************************.
Our calculation assumes that the civil fraud penalties would have been recommended and
assessed by the Examination function and sustained upon any taxpayer appeal on the entire
amount of taxes owed had the *********************************1*******************
************************1********************************.




                                                                                            Page 17
                       The Collection Function Develops Quality Fraud Referrals
                        but Can Improve the Identification and Development of
                                        Additional Fraud Cases



                                                                                                Appendix V

                                     Glossary of Terms

Campuses – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Due Process Form – Form 12153, Request for a Collection Due Process or
Equivalent Hearing, is used by taxpayers who are issued certain lien or levy notices to request a
Collection Due Process hearing with the IRS Office of Appeals.
Collection Field Function – The unit in the Area Offices consisting of ROs who handle
personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Collection Function Area – There are seven Collection function areas, or separate regions, as
follows: California, Central, Gulf States, Midwest, North Atlantic, South Atlantic, and Western.
Data Center Warehouse – Architecture used to maintain critical historical data that have been
extracted from operational data storage and transformed into formats accessible to an
organization’s analytical community.
Embedded Quality Review System – The Embedded Quality Review System allows managers
to provide timely feedback to individual employees through performance reviews.
ENTITY Case Management System – A database that includes Collection Field function
inventory, including time reporting on each case, and produces reports that can be used at the
individual, group, Territory, Area, and national levels. ENTITY information can assist managers
in analyzing group activity and inventory using a broad range of criteria.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Fraud/Bank Secrecy Act Function – Within the IRS’s SB/SE Division, the Fraud/Bank
Secrecy Act function provides oversight and direction for fraud policy and operations
Service-wide and examines for compliance with Bank Secrecy Act1 requirements. The
Fraud/Bank Secrecy Act function is comprised of three components, one of which is the National
Fraud Program.



1
 Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
18 U.S.C., and 31 U.S.C.).
                                                                                                             Page 18
                       The Collection Function Develops Quality Fraud Referrals
                        but Can Improve the Identification and Development of
                                        Additional Fraud Cases



Fraud Technical Advisor – An FTA serves as the cross-functional liaison/resource and local
expert in criminal and civil fraud, advising Collection Field function personnel on the
interpretations of laws, policies, and procedures governing fraud. The FTA also plays an
important role in fraud awareness and training.
Integrated Collection System – An information management system designed to improve
revenue collections by providing ROs with access to the most current taxpayer information,
while in the field, using laptop computers for quicker case resolution and improved customer
service.
Integrated Data Retrieval System – An IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.
IRS Operating Division – The IRS Restructuring and Reform Act of 19982 prompted the IRS to
reorganize itself into operating divisions to closely resemble the private sector model of
organizing around customers with similar needs. That reorganization resulted in the current four
primary operating divisions at the IRS: Wage and Investment, Large Business and International,
Small Business/Self-Employed, and Tax Exempt and Government Entities.
National Fraud Program – The National Fraud Program is one component under the
Fraud/Bank Secrecy Act function and is administered by the Fraud Office. The main purpose of
the National Fraud Program is to provide customer service to all operating divisions within the
IRS in identifying and developing potential fraud cases.
National Quality Review System – The National Quality Review System allows national
reviewers to evaluate Collection function files to determine whether the ROs complied with
quality attributes established by the IRS.
Overage Clock – A system that tracks the aging of a case once it is assigned to the Collection
Field function.
Returns Transaction Files – The Treasury Inspector General for Tax Administration Data
Center Warehouse contains two returns transaction files that are updated weekly. The Individual
Master File Returns Transaction File includes line item information and amounts from filed
individual returns and schedules. The Business Master File Returns Transaction File is grouped
by return type and includes line item information and amounts from filed business returns.
Revenue Officer – Employees in the Collection Field function who attempt to contact taxpayers
and resolve collection matters that have not been resolved through notices sent by IRS campuses.
Tax Gap – The Tax Gap is the difference between taxes that are legally owed and taxes that are
paid on time.


2
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 19
                   The Collection Function Develops Quality Fraud Referrals
                    but Can Improve the Identification and Development of
                                    Additional Fraud Cases



Taxpayer Identification Number – A permanent number for identification of the tax account
for every taxpayer. The Employer Identification Number is used to identify a taxpayer’s
business account. The Social Security Number is used as the account number of an individual
taxpayer.
Territory Manager – Territory managers are responsible for planning, organizing, coordinating,
monitoring, and directing their respective programs through subordinate managers (including
group managers) who are geographically dispersed throughout the assigned Territory.




                                                                                      Page 20
     The Collection Function Develops Quality Fraud Referrals
      but Can Improve the Identification and Development of
                      Additional Fraud Cases



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 21
The Collection Function Develops Quality Fraud Referrals
 but Can Improve the Identification and Development of
                 Additional Fraud Cases




                                                      Page 22
The Collection Function Develops Quality Fraud Referrals
 but Can Improve the Identification and Development of
                 Additional Fraud Cases




                                                      Page 23
